U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: William Marcellus Campbell v. United States of America
S.Ct. No. 21-5666
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
13, 2021, and placed on the docket on September 15, 2021. The government’s response is due
on October 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5666
CAMPBELL, WILLIAM MARCELLUS
USA

ROCKNE O. COLE
209 E. WASHINGTON STREET
SUITE 304
IOWA CITY, IA 52240
319-358-1900
ROCKNECOLE@GMAIL.COM
319-358-1902(Fax)

